Office of Inspector General


August 29, 2012

MEMORANDUM

TO:                  USAID/Caucasus Mission Director, Stephen Haykin

FROM:                IG/A/PA, Director, Steven Ramonas /s/

SUBJECT:             Review of USAID/Caucasus’s Public Hospital Infrastructure Project
                     (Report No. 2-114-12-006-S)

This memorandum transmits our final report on the subject review, which is a supplement to
Report No. 2-114-12-005-S, “Review of Selected USAID/Caucasus’s School Rehabilitation
Activities,” issued on April 20, 2012. In finalizing the report, we considered your comments and
included your response in Appendix II.

Although not an audit, this report contains two recommendations to help improve management
of infrastructure projects.        Management decisions have been reached on both
recommendations. Please provide the Audit Performance and Compliance Division of USAID’s
Office of the Chief Financial Officer with evidence of final action to close the recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
review.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usiad.gov/oig
SUMMARY
The United States pledged $1 billion to Georgia after its war with Russia in 2008. Of this sum,
$574 million was programmed through USAID, including a $250 million direct cash transfer to
the Government of Georgia. This pledge was made to encourage democratic reform while
rebuilding Georgia’s infrastructure and economy, restoring investor confidence, and improving
health services to vulnerable groups, including ethnic minorities and internally displaced people.

As part of the improved health services component, USAID/Caucasus rehabilitated three public
hospitals under the Public Hospital Infrastructure Project. They were the Akhaltsikhe,
Ninotsminda, and Akhalkalaki hospitals. All are located in Samtskhe-Javakheti, a region in
southern Georgia shown in the map.




               Source: U.N. Cartographic Section, Department of Field Support.

USAID/Caucasus selected these hospitals because they were in very bad shape and were
excluded from the Georgian Government’s privatization scheme, which transferred ownership of
hospitals to the private sector in exchange for rehabilitating or replacing them. Since these
hospitals served an economically undeveloped region, the project would provide short-term
employment opportunities and improve access to health services in this region.

USAID entered into an interagency agreement with the U.S. Army Corps of Engineers to
rehabilitate the hospitals from March 30, 2010, through September 30, 2011. The project’s
completion date was extended to February 29, 2012. USAID/Caucasus initially invested $1.6
million in the project; its final cost was nearly $3.2 million.



                                                                                                1
The Office of Inspector General (OIG), Inspections and Evaluations Division1 conducted this
review to determine whether USAID/Caucasus implemented the hospital project in a fiscally
responsible way. In response to the 2008 war, the mission’s annual program budget surged
from about $50 million to more than $350 million in 2010. The mission faced great challenges in
managing this massive increase in programming. It considered every mechanism available to
increase procurement, engineering, and oversight capacity. Using an interagency agreement
with the Army Corps was a means of mitigating the mission’s challenges in a post-war surge
environment. The mission took steps to implement the hospital project in a fiscally responsible
way, but the review identified the following issues:

    Mission’s monitoring of infrastructure projects needs improvement (page 3). The mission
    did not have comprehensive internal policies, procedures, checklists, and reporting
    mechanisms to help technical staff monitor infrastructure projects.

    Infection control measures in health-care facilities can be strengthened (page 4). Some
    critical rehabilitation features in the departments in Akhaltsikhe and Ninotsminda did not
    meet recommended safety guidelines established by the Centers for Disease Control and
    Prevention (CDC) and the World Health Organization (WHO).

This report contains two recommendations.

1. Implement comprehensive internal policies, procedures, checklists, and reporting
   mechanisms that technical staff must use when overseeing infrastructure projects (page 4).

2. Consult with USAID’s Bureau for Global Health and CDC in writing to verify whether the
   rehabilitation work performed in the infectious diseases departments met guidelines and
   take appropriate actions if not done according to guidelines (page 5).

Detailed findings follow. Our evaluation of management comments is on page 6. Appendix I
presents the review’s scope and methodology, and Appendix II contains the mission’s written
comments on the draft report in their entirety, without attachments. Appendix III contains two
tables we refer to in the report.




1
  On May 7, 2012, OIG’s Inspections and Evaluations Division merged into the Performance Audits
Division.

                                                                                             2
REVIEW RESULTS
Monitoring of Infrastructure
Projects Needs Improvement
USAID’s Automated Directives System (ADS) 306.2.e.(2)(a)2 says that for interagency
agreements under the Foreign Assistance Act (FAA), Section 632(b):

        The Cognizant Technical Officer is responsible for overseeing all technical
        matters with the Participating Agency, monitoring, in a manner appropriate to the
        nature of the interagency agreement, the performance and effectiveness of
        services being provided, and keeping the Agreement Officer advised of any
        problems or need for changes. For example, under a Participating Agency
        Program Agreement, the Cognizant Technical Officer would monitor the program
        and receive and evaluate reports to ensure that the Participating Agency makes
        appropriate progress.

ADS 306.3.2.21 also added that “USAID is accountable for the funds it obligates under FAA
section 632(b) and must provide the necessary oversight and coordination for the services or
programs it finances.”

The interagency agreement specified:

        The Army Corps and USAID will cooperate to assure that the purpose of this
        agreement will be accomplished. To this end, Army Corps and USAID, at the
        request of either, will exchange views on the progress of the program, the
        performance of obligations under the agreement, and the performance of any
        consultants, contractors, or suppliers engaged in the program, and other matters
        relating to the program.

Absent of USAID policy or guidance specific to infrastructure projects at the time, the mission
made its Health and Social Development Office (HSD) responsible for coordinating and
monitoring the hospital project. HSD’s office director consulted and collaborated with the Army
Corps throughout the project. This included regular telephone calls, e-mail exchanges, and
meetings with Army Corps officials. Progress reports submitted by the Army Corps were
monitored by the project’s assistance officer’s representative (AOR), alternate AOR, and HSD’s
office director on a regular basis.

Despite the mission’s monitoring efforts, project delays occurred. The mission was aware of the
delays from the start of the project in 2010 and had ongoing concerns regarding contractor
performance, quality of work, estimates, and cost for some items, as shown in the tables in
Appendix III. Yet mission officials said they made a studied decision to continue to push the
Army Corps and the contractor to finish the project properly and on schedule.


2
  ADS 306 was revised on January 31, 2012. The new version changed the term “cognizant technical
officer” to “contracting officer’s representative” or “assistance officer’s representative.” The citations in
this report refer to the version of ADS that was in effect at the time of the audit.


                                                                                                           3
The absence of agency-wide policies and guidance for infrastructure projects, as well as the
mission’s lack of comprehensive internal policies, procedures, checklists, and reporting
mechanisms hampered its ability to react to delays. To help the mission monitor its
infrastructure projects better, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Caucasus implement comprehensive
   internal policies, procedures, checklists, and reporting mechanisms that technical staff
   must use when monitoring infrastructure projects.

Infection Control Measures in
Facilities Need Strengthening

Both CDC and WHO have published guidelines for infection control in health-care facilities.
CDC’s “Guidelines for Environmental Infection Control in Health-Care Facilities” and WHO’s
“Practical Guidelines for Infection Control in Health Care Facilities” specify recommended
requirements for ventilation systems and special air handling to prevent infectious diseases and
organisms from spreading beyond departments designed to contain them.

WHO notes that infectious diseases—such as severe acute respiratory syndrome, plague, and
tuberculosis—highlight “the need for efficient infection control programmes in all health care
settings.” For example, WHO recommends that the air-handling systems change the air 6 to 12
times per hour by discharging it outside through a filtration mechanism. However, the Army
Corps’ statements of work did not specify that the air should be changed this frequently; instead
the statements specified that mechanical ventilation was to be provided for air changes not less
than twice per hour, and this applied to all hospital departments.

CDC’s guidelines state that “to minimize the growth and persistence of gram-negative
waterborne bacteria cold water in health-care facilities should be stored and distributed at
temperatures below 68°F (20°C); hot water should be stored above 140°F (60°C) and circulated
with a minimum return temperature of 124°F (51°C) or the highest temperature specified in state
regulations and building codes.” However, the Army Corps’ statement of works did not include
a minimum cold water temperature for the infectious diseases departments and actually
specified that “All faucets and showers shall limit water temperature to 50 degrees C.”

According to CDC’s guidelines, “Construction, renovation, repair, and demolition activities in
health-care facilities require substantial planning and coordination to minimize the risk for
airborne infection both during projects and after their completion.” The audit team did not find
any evidence that such planning and coordination occurred. During field work, we discovered
that the Army Corps’ contractor did not take any precautions to protect its workers from
exposure while rehabilitating the departments.

Officials from USAID/Caucasus and the Army Corps said they were not aware of guidelines for
infectious diseases facilities. According to the Army Corps, it did not receive specific
instructions from mission officials on standards unique to infectious diseases facilities.

According to the mission, hospital licensing in Georgia is governed by Decree 385, dated
December 17, 2010. This decree defines basic requirements for hospitals with infectious
disease departments, as well as specifications for ventilation systems for various departments,
but they do not necessarily correspond with CDC and WHO guidelines described above.


                                                                                               4
If the infectious diseases departments’ rehabilitations need to be redone, the subsequent cost
could be very high. Therefore, we make the following recommendation.

   Recommendation 2. We recommend that USAID/Caucasus consult with USAID’s
   Bureau for Global Health and the Centers for Disease Control and Prevention in writing
   to verify whether the rehabilitation work performed in the infectious diseases
   departments meets guidelines and take appropriate actions if not done according to
   guidelines.




                                                                                            5
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Caucasus agreed with the two recommendations, but disagreed with some aspects
contained in the draft report. In finalizing this report, we carefully considered and incorporated
the mission’s suggested edits, comments, and informal communications.

On the basis of the information in the mission’s response to the draft report, we determined that
management decisions have been made on both recommendations.

Recommendation 1. In the absence of USAID policy or guidance, USAID/Caucasus has
developed and issued “Guidance on Conducting Monitoring Inspections of Construction and
Rehabilitation” and a corresponding checklist tool to all CORs and AORs. The mission also
drafted a mission order specific to infrastructure projects that should be approved by September
30, 2012. Accordingly, a management decision has been reached.

Recommendation 2. USAID/Caucasus consulted with experts from USAID’s Bureau for Global
Health and CDC to verify whether the rehabilitation work performed in the infectious diseases
departments met guidelines. In April 2012 these experts visited hospitals throughout Georgia
that were built or renovated recently to gain an understanding of the infection control standards
routinely used in medical facilities. Based on those site visits, a report with recommendations
was generated on May 14, 2012, which is guiding changes to infection control policies and
procedures throughout Georgia.

USAID/Caucasus will continue to provide technical assistance to all hospitals throughout
Georgia to improve infection control measures. The mission’s target completion date is
September 30, 2012. Accordingly, a management decision has been reached.

The Audit Performance and Compliance Division of USAID’s Office of the Chief Financial Officer
will make a determination of final action when the mission completes planned corrective actions
on the recommendations.




                                                                                                6
                                                                                          Appendix I



SCOPE AND METHODOLOGY
Scope
OIG’s Inspections and Evaluations Division conducted this review of USAID/Caucasus’s Public
Hospital Infrastructure Project in accordance with generally accepted government auditing
standards. This review was conducted in accordance with the July 2007 revision of
Government Auditing Standards—specifically, with the general standards in Chapter 3, the
documentation standards in Sections 7.72 through 7.79, the evidence standard in Section 7.55,
and the standards for developing elements of a finding in Sections 7.72 through 7.76. These
standards require that we plan and perform the review to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions in accordance with the review
objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this review was to determine whether the project was implemented in a fiscally
responsible way. We performed this review from July 25 through November 29, 2011.
Fieldwork was conducted at USAID/Caucasus and the Army Corps office in the U.S. Embassy
in Georgia, and in OIG’s office in Washington, D.C. The review contained four components:
(1) an inspection, (2) a programmatic review, (3) a regulatory compliance review, and (4) a cost
analysis.

Methodology
To answer the review objective, we inspected the three hospitals. We then analyzed
USAID/Caucasus’s memoranda for project approval, fiscal years (FY) 2008-2010 operational
plans, mitigation and monitoring plans, the interagency agreement, and all its modifications.
After that, we studied the Army Corps’ requests for proposal, hospitals’ statements of work, task
orders, independent government estimates, and activity summaries. Last, we examined USAID
ADS, the FAR, the Army Corps’ manuals and directives, and best practices issued by GAO,
CDC, and WHO. The document reviews were augmented by interviews with USAID/Caucasus,
the Army Corps, and contractor staff.

The site visits covered the overall rehabilitation of the project’s hospitals, heating facilities, and
the installation of new doors, windows, floors, ceilings and other aesthetic work, including the
bathrooms. We prepared detailed observations with photographs on the quality of materials and
design decisions used to determine whether the overall goals of the program were being
met. We analyzed the Army Corps’ statements of work for each hospital and compared
activities being performed with the specifications laid out in those statements. We also
analyzed the Army Corps’ monitoring reports and e-mail exchanges between USAID/Caucasus
and the Army Corps pertaining to the project’s progress prepared over the course of the
rehabilitation activities, and we compared the actual site conditions with those reports to confirm
whether they were really completed or were ongoing.                   We met with responsible
USAID/Caucasus personnel, the Army Corps, hospital staff and officials, and the
contractor. During site visits, we relied on USAID/Caucasus and the Army Corps staff as
translators to conduct interviews in Georgian with certain local officials, beneficiaries, and the
contractor.




                                                                                                    7
                                                                                        Appendix I


For the programmatic review, we analyzed the FY 2008-2010 operational plans for Georgia, the
interagency agreement, and its modifications. These documents provided us with important
information pertaining to the scope of the project, the activities that could be executed, approved
and prohibited activities, the funds obligated, and the duration.

We conducted the regulatory compliance review by assessing different aspects of the bidding
process, and compared them with the FAR, GAO guidance, the Army Corps manuals and
directives, CDC and WHO specifications for infectious diseases departments, and Georgia’s FY
2008-2010 operational plans. The FAR and GAO informed us whether USAID/Caucasus and
the Army Corps missed ways to reduce the final price of the project. CDC’s and WHO’s
guidance for infectious diseases departments informed us about minimum standards for the
construction, rehabilitation, and renovation of infectious diseases departments.

For the cost analysis, we analyzed independent government estimates submitted by
USAID/Caucasus and the Army Corps, the Army Corps’ task orders, activity summaries, floor
plans prepared by the contractor, and information on the change order for Akhaltsikhe.

We broke down the Army Corps’ May and June independent government estimates into
individual components to identify how the Army Corps arrived at the June 2010 estimate. We
sorted estimated prices for different groups of activities and compared them for different
hospitals; the sorted lists also helped us find variations among estimates within each hospital.
We extracted prices the contractor quoted for demolition and some construction, and then
extracted data about the areas involved from the hospital plans to arrive at unit prices for
different areas in the hospitals. We then compared these prices to identify whether they were
similar or divergent. We performed similar analyses to determine whether floor-ceiling price
ratios differed, by how much if they did, how much USAID/Caucasus paid for doors and their
difference, and to determine unit prices for rehabilitations.




                                                                                                 8
                                                                                    Appendix II



MANAGEMENT COMMENTS


                                                                               August 20, 2012

                                             MEMORANDUM


TO:                    Steven Ramonas, Director
                       IG/A/PA

FROM:                  Stephen M. Haykin, Mission Director
                       USAID/Caucasus

SUBJECT:               Mission Comments on Review of USAID/Caucasus’s Public Hospital
                       Infrastructure Project (Report No. 2-114-12-00X-S)



USAID/Caucasus has reviewed the draft Review of USAID/Caucasus’s Public Hospital
Infrastructure Project (Report No. 2-114-12-00X-S) and related recommendations. The Mission
disagrees with a number of the characterizations contained in the report, but agrees with the
recommendations. Please see the attached draft report with suggested edits and comments. The
specific recommendations and related Mission comments are provided below.


      Recommendation 1. We recommend that USAID/Caucasus develop and implement
      comprehensive internal policies, procedures, checklists, and reporting mechanisms that
      technical staff must use when monitoring infrastructure projects.

Mission Comments: USAID/Caucasus agrees with this recommendation.

However, the Mission would like to point out that USAID/Caucasus complied with the
requirements of all applicable Agency policies and guidelines and the new USAID Construction
Policy, which has not yet been adopted. This included assigning a USAID engineer as liaison to
USACE (there is no AOR when responsibility for a project is transferred to another agency) to

11 George Balanchine Street
Tbilisi 0131, Georgia
Tel: (995 32) 254 4000
Fax: (995 32) 254 4145
georgia.usaid.gov

                                                                                               9
                                                                                       Appendix II


provide technical guidance, including monitoring and oversight services, for design and
performance of the award. In accordance with Mission Order 203, which requires AORs to visit
project sites at least once per quarter, USAID’s engineer visited the hospital sites a total of 13
times from 1/2010 to 2/29/2012. USAID engineer monitoring visits occurred on 1/14/10; 5/7/10;
8/9/10; 1/12/11; 6/7/11; 7/14/11; 9/28/11; 10/12/11; 10/24/11; 11/28/11; 12/2/11; 2/2/12;
2/29/12. In addition, the USAID engineer held regular meetings with USACE representatives
and was in regular contact with the hospital directors and the Ministry of Labor, Health, and
Social Affairs (MOLHSA) regarding project implementation and progress. Finally, many of the
delays were caused by the financial insolvency of USACE’s contractor, and could not have been
resolved by additional monitoring.

Actions Taken/Planned: In the absence of USAID policy or guidance, the Mission has
developed and issued to all CORs and AORs “Guidance on Conducting Monitoring Inspections
of Construction and Rehabilitation” with a corresponding checklist tool. (Attached).
Additionally, a Mission Order specific to infrastructure projects has been drafted and will be
approved by September 30, 2012. This Mission Order will reflect the principles in USAID’s
“Basic Engineering and Construction Management: A Primer” (December 2010) and the new
USAID Construction Policy. The Mission Order will provide the structure and processes to
assure that the agency’s requirements are met, and assure quality of infrastructure projects. The
Mission Order will facilitate Quality Assurance Management by providing a simplified and
structured system for tracking project progress, documentation and performing inspections.


Target Completion Date: September 30, 2012.




   Recommendation 2. We recommend that USAID/Caucasus consult with USAID’s Bureau for
   Global Health and the Centers for Disease Control and Prevention in writing to verify
   whether the rehabilitation work performed in the infectious diseases departments meets
   guidelines and take appropriate actions.

Mission Comments: USAID/Caucasus agrees with this recommendation.

However, the Mission would like to clarify that, while providing valuable insight, the guidelines
issued by the Center for Disease Control (CDC) are not the mandatory standard for this activity.
Hospital licensing in Georgia is governed by the Government of Georgia Decree #385 which
defines requirements for hospitals with infectious disease departments, as well as specifications
for ventilation systems for various departments. USAID provided USACE with the applicable
Georgian guidelines on March 11, 2011, prior to the works. In addition, USAID connected
USACE with the Ministry’s engineering team to review the planned technical specifications for
ventilation/sewage requirements and validate their conformity with Government of Georgia
standards. The decision to place the infectious diseases department in the main building of the
hospitals was compliant with the Government of Georgia’s overall strategy of concentrating
medical facilities (including infectious disease departments) under one roof. Further, USAID

                                                                                                10
                                                                                        Appendix II


transferred funds to USACE and USACE was the cognizant federal agency responsible for
designing, contracting and managing the hospital renovation following international standards
for infectious disease facilities.

ACTIONS TAKEN/PLANNED: USAID/Caucasus contacted Cheri Vincent in USAID’s
Bureau for Global Health. Ms. Vincent facilitated a technical assistance visit to Georgia by Paul
Jensen of CDC and Sevim Ahmedov, USAID. Mr. Jensen is an expert in infection control and
has worked in the Europe and Eurasia region for many years. Mr. Ahmedov is USAID’s expert
on tuberculosis and infection control. The visit took place the week of April 23, 2012. At the
time of their visit, the three hospitals renovated by USACE were undergoing changes in
ownership, therefore, a visit was not possible. However, the experts met with USACE and
reviewed detailed drawings of the buildings to assess the situation. The experts also visited other
recently built and renovated hospitals throughout the country to gain understanding of the
infection control standards routinely used in medical facilities in Georgia. Based on these visits,
a report with recommendations was generated on May 14, 2012 which is guiding changes to
infection control policies and procedures throughout Georgia. Through TB Prevention and
Control Project, implemented by URC, USAID/Caucasus will continue to provide technical
assistance to all hospitals throughout Georgia to improve infection control measures in facilities.

TARGET COMPLETION DATE: September 30, 2012




                                                                                                 11
                                                                                           Appendix III


       Table 1. Comparison of Some Activities Prices in the Army Corps’ June 2010
                          Independent Government Estimate

                                                        Price per Hospital ($)               Difference
        Activity                 Unit
                                              Akhaltsikhe   Ninotsminda      Akhalkalaki         (%)

Windows                    each                    179                 203         203          113
Demolish wall tiles        square meter              6                  12           6          200
Demolish loose screed      square meter              4                  24           4          600
Dismantle radiators        each                     24                  12           6          400
Dismantle piping           meter                     5                   1           1          500
Demolish electric panels   each                     60                  36          36          167
Demolish lighting          each                      6                   2           2          300
10-meter-high funnel       meter                 1,074               5,997       1,074          558
Pressure meters            each                     60                  60         119          200
Heating controls           lump sum              3,580               2,387       2,387          150




 Table 2. Difference Between Contractor’s Quoted Prices and Independent Government
                                    Estimates ($)

                                                                        Estimated Prices
                                        Contractor's
              Activity                                   Army Corps        Army Corps        USAID
                                           Price
                                                         (May 2010)        (June 2010)
Ninotsminda
New windows                                  74,100        80,228              32,863        30,000
Roof                                         28,400        25,968              11,903        10,500
Infectious diseases department               88,200        78,029              63,465        40,485
Clinic                                       67,000        74,174              61,146        40,485
Children's department                       138,000        99,908              72,762        14,850
Admin/lab area                              103,000        90,813              70,060       165,990
Total                                       498,700       449,120             312,199       302,310

Akhaltsikhe
Infectious diseases department              370,000       340,405             249,427       225,962
Road paving                                 186,000        11,564              11,146       120,000
Total                                       556,000       351,969             260,573       345,962

Akhalkalaki
First floor                                 238,600       349,490             280,197       187,200
Lab area                                    137,000        30,353              58,171        18,750
Maternity ward/surgery                      215,000       214,071             185,462       187,200
New generator                                58,000        55,714              17,900        10,500
Total                                       648,600       649,628             541,730       403,650

Grand Total                               1,703,300      1,450,717           1,114,502     1,051,922




                                                                                                       12
